                                                       OFFICE OF INSPECTOR GENERAL
                                               FY 2000 PERFORMANCE MEASURES
                         AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS

Objective: Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.

PERFORMANCE GOALS                                   OUTPUT/CRITERIA                                                OUTCOME/IMPACT

1. Deliver quality audit and         Audit and inspection reports.                                 FCA programs and operations are more effective.
  inspection products and services   Details at Attachment 1.                                      COO has begun an initiative to refine performance
  that are useful to the Board,                                                                    measures. An inventory of products and services was
  management and/or the              Audits and inspections are relevant. Audit coverage           developed. The Agency policy on GPRA is also being
  Congress.                          includes all mandated audits and at least 75% of those        refined.
                                     suggested by the Board and management.
                                     Four audits and six inspections were initiated to             The CIO established a service level agreement that
                                     examine program efficiencies, especially the use of           describes services available to the Agency.
                                     resources. Any audit specifically requested by a FCA
                                     Board member was performed.                                   Video-conferencing accessibility has enhanced
                                                                                                   communication throughout the Agency.
                                     Risk is addressed. 100% of OIG audits are performed in
                                     high risk/high $ programs and activities and/or are tied to   Waste in Agency programs and operations is reduced.
                                     the Agency strategic planning goals.
                                     All audits were in high-risk programs and/or were             Increased Agency compliance with laws, regulations and
                                     tied to the Agency strategic plan. Focus was on               internal policies and procedures.
                                     major Agency programs and implementation of new               Through the partnership concept, the IG and FCA
                                     programs. Inspections were utilized for field office          management:
                                     reviews. Each product was aimed at identifying                1) Received an unqualified opinion for the Agency’s FY 99
                                     efficiencies and potential cost savings.                         financial statements;
                                                                                                   2) Upgraded the Continuity of Operations Plan;
                                                                                                   3) Switched telecommunication services to a more cost
                                                                                                      effective provider; and
                                                                                                   Improved communications including remote access

New measures = green New Outputs = blue          New Outcomes = red                                                                              Page 1 of 13
                                                      OFFICE OF INSPECTOR GENERAL
                                              FY 2000 PERFORMANCE MEASURES
                         AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS


PERFORMANCE GOALS                                  OUTPUT/CRITERIA                                            OUTCOME/IMPACT

                                                                                               service, tiered user-training for in-house computer
                                                                                               applications, and improved policies for the Agency’s
                                                                                               network system’s security.

1. Deliver quality audit and         Findings made during audit fieldwork are recognized and
   inspection products and           corrected by management prior to drafting of the audit
   services that are useful to the   report.
   Board, management and/or the
   Congress (continued)              Management worked with OIG to address findings
                                     during the following reviews:
                                     • FCA’s FY 1999 Financial Statements
                                     • Performance Measures
                                     • FCA’s Preparation for Year 2000 Compliance
                                     • Office of Examination’s Early Warning System
                                         Stress Model
                                     • Imprest Fund
                                     • Cash Management and Investment Practices
                                     • Telecommunication Costs and Services
                                     • Procurement and Supply Functions
                                     • Denver Field Office
                                     • McLean Field Office




New measures = green New Outputs = blue          New Outcomes = red                                                                         Page 2 of 13
                                                       OFFICE OF INSPECTOR GENERAL
                                              FY 2000 PERFORMANCE MEASURES
                        AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS


PERFORMANCE GOALS                                  OUTPUT/CRITERIA                               OUTCOME/IMPACT


1. Deliver quality audit and         Products are timely, i.e. average time to complete audits
  inspection products and services   and issue draft reports will not exceed 6 months.
  that are useful to the Board,      All audits were completed in within six months.
  management and/or the Congress     Inspections were completed more rapidly (2 mos. or
  (continued)                        less, except for one which took 22 months to
                                     complete).

                                     Audits are constructive. At least 75% of audit products
                                     contain recommendations to improve Agency operations.
                                     100 % of audits and inspections performed contain
                                     recommendations to improve Agency operations.

                                     The Agency accepts at least 80% of OIG audit
                                     recommendations.
                                     During this reporting period, there were 44 agreed
                                     upon actions or recommendations. All but one was
                                     accepted.

                                     The Agency actually implements all corrective actions
                                     prescribed by management decisions.
                                     75% of the corrective actions have been implemented.
                                     The remaining 25% of those recommendations that
                                     have been accepted by management are not yet
                                     implemented.

New measures = green New Outputs = blue          New Outcomes = red                                               Page 3 of 13
                                                     OFFICE OF INSPECTOR GENERAL
                                              FY 2000 PERFORMANCE MEASURES
                         AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS



    PERFORMANCE GOALS                                        OUTPUT/CRITERIA                                     OUTCOME/IMPACT

2. Provide technical advice and assistance   The IG advises the Chairman concerning policy direction or   OIG input and advice contributes to Agency
   to Agency officials in developing sound   administrative priorities.                                   decisions and actions that are more
   management information and financial      The IG delivered two advisories to the Chairman concerning   complete and valid at their inception.
   reporting systems and in streamlining     policy issues and administrative priorities.
   programs and organizations.                                                                            OIG worked with Agency management to
                                             OIG performs analysis and provides technical advice to       identify alternatives to its financial
                                             management concerning accounting, management systems and     management system.
                                             controls, and performance measures.
                                             Technical analysis and advice was provided through the       Increase in management requests for
                                             following:                                                   advice, audit work or technical assistance.
                                             • GPRA implementation/performance measures                   Agency management regularly asks OIG
                                             • Incidental expenses                                        staff to look at policies and operating
                                             • Acquisition of Financial Management System from            procedures.
                                                 External Source
                                             • Travel - per diem                                          OIG was asked to engage a contractor to
                                             • Compensation workgroup                                     validate the FCA’s Early Warning System.
                                             • FCA Accountability Report
                                             • Telecommuting                                              OIG is a laboratory of change, a model
                                                                                                          for best practices. OIG has employee
                                             • Inclusion of pay differential in retirement calculation
                                                                                                          contracts and an interdisciplinary team
                                             • Budgeted Contract Funds v. Actual Use
                                                                                                          approach to projects.
                                             • Physical Security
                                             • Flattened internal organizations.                          OIG also has entered into an interagency
                                                                                                          MOU to provide OIG with personnel

New measures = green New Outputs = blue         New Outcomes = red                                                                         Page 4 of 13
                                               OFFICE OF INSPECTOR GENERAL
                                          FY 2000 PERFORMANCE MEASURES
                     AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS


   PERFORMANCE GOALS                                   OUTPUT/CRITERIA                                     OUTCOME/IMPACT

                                                                                                    services. This is a pilot program.
                                     •    Service Level Agreements were reviewed and OIG gave
                                          comments.                                                 OIG extended its expertise in
                                     •    Family-friendly initiatives were expanded and approved.   administering surveys to include a
                                                                                                    Regulatory survey to customers of the
                                                                                                    Agency who have commented on
                                                                                                    regulations.




New measures = green New Outputs = blue    New Outcomes = red                                                                       Page 5 of 13
                                                    OFFICE OF INSPECTOR GENERAL
                                            FY 2000 PERFORMANCE MEASURES
                         AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS



    PERFORMANCE GOALS                                      OUTPUT/CRITERIA                                     OUTCOME/IMPACT

3. Continuous improvement of OIG staff,    Customer survey feedback is used to improve products and   Peer review reports provide an unqualified
   products and internal administration.   services.                                                  opinion that OIG audit work meets or exceeds
                                                                                                      quality audit standards prescribed by GAO and
                                           OIG training ensures the technical proficiency of staff.   the PCIE/ECIE.
                                           Training classes attended for proficiency:                 Peer review performed of audit operation was
                                           • Audit Evidence and Working Papers (Burr)                 successfully completed by the National
                                           • Attendance and Leave (Burr)                              Archives and Records Administration OIG
                                           • Nat’l. Diversity Symposium (Burr)                        during this period.
                                           • Governance in the 21st Century (Dean)
                                           • Advanced Mediation (Dean)                                Customer survey feedback evidences increased
                                           • 2000 Economic Crime Summit (Ohlstrom)                    satisfaction with report practices.
                                           • Introduction to Federal Budgeting (Ohlstrom)             Report survey customer feedback was positive
                                                                                                      with 4.5 average (of a possible 5).
                                           • Introduction to Program Evaluation (Ohlstrom)
                                           • Strategist v. Planner (Ohlstrom)
                                           • Clear Writing Through Critical Thinking
                                              (Lewandrowski)
                                           • Time Management (Lewandrowski))
                                           • National Intergovernmental Audit Forum (Stoehr)
                                           • PCIE/ECIE Training (Stoehr)




New measures = green New Outputs = blue        New Outcomes = red                                                                     Page 6 of 13
                                                   OFFICE OF INSPECTOR GENERAL
                                           FY 2000 PERFORMANCE MEASURES
                        AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS


   PERFORMANCE GOALS                                      OUTPUT/CRITERIA                                         OUTCOME/IMPACT




3. Continuous improvement of OIG staff,   OIG implements administrative improvements identified         The Inspector General’s opportunity to facilitate
   OIG products and processes.            through reviews of other Agency programs and through staff    positive change within the Agency is enhanced by
   (continued)                            involvement with the professional community.                  the quality and credibility of OIG products and
                                          • OIG staff members enter into a performance contract         advice.
                                              with the IG, identifying projects and responsibilities.   OIG staff actively develops ideas for adding
                                              Similarly, the IG and the Agency Chairman sign a          value to the Agency and OIG operations. Part
                                              performance contract.                                     of OIG performance contracts involve
                                          • OIG teambuilding is ongoing.                                identifying specific ideas to review in the
                                          • Equipment upgrades allow more professional products         upcoming year.
                                              to be produced in-house. OIG welcomes the Agency to
                                              use the equipment. This has resulted in more              This reporting period an Administrative
                                              professional products and acquisition of the necessary    Burden Workgroup was led by an OIG staff
                                              equipment within the Agency.                              member to streamline routine procedures
                                          • Time tracking has been streamlined.
                                          • OIG has made a decision to reach “Agreed Upon                The Agency has expanded work/life
                                              Actions” in audits and inspections when possible.         programs. Casual dress is permitted, maxi-
                                          • The Hotline number has gained more visibility by being      flex, telecommuting, and credit hours are
                                              put on the FCA website. OIG also has an independent       allowed.
                                              Internet Hotline account, outside the FCA                 The Agency received an award for Work/Life
                                              infrastructure.                                           programs presented by OPM. The PCIE/ECIE
                                                                                                        awarded an OIG staffer recognition for her
                                                                                                        contribution.

New measures = green New Outputs = blue      New Outcomes = red                                                                            Page 7 of 13
                                               OFFICE OF INSPECTOR GENERAL
                                          FY 2000 PERFORMANCE MEASURES
                     AUDITS AND EVALUATIONS OF AGENCY PROGRAMS AND OPERATIONS


   PERFORMANCE GOALS                                 OUTPUT/CRITERIA                  OUTCOME/IMPACT


                                                                             OIG was asked to prepare a revised leave
                                                                             policy, comparable to other financial
                                                                             regulators. It is being evaluated by Agency
                                                                             management.




New measures = green New Outputs = blue    New Outcomes = red                                                Page 8 of 13
                                                    OFFICE OF INSPECTOR GENERAL
                                       FY 2000 OIG PERFORMANCE MEASURES
                                                                 INVESTIGATIONS

Objective: Investigate observed, alleged or suspected wrongdoing to prevent and detect fraud, waste, abuse and mismanagement in Agency
           programs and operations.



    PERFORMANCE GOALS                                       OUTPUT/CRITERIA                                             OUTCOME/IMPACT


1. Administrative and criminal violations   Investigative reports are timely and presented in an objective   Administrative action, convictions or pleas are
   relating to FCA programs and personnel   and factual manner. Memoranda are issued to management           obtained for employees and/or contractors found
   are effectively investigated and         describing internal control weaknesses or program                guilty of wrongdoing.
   reported.                                deficiencies found during the investigative process with
                                            suggestions to prevent and/or detect future wrongdoing.          Management actions taken against employees
                                            70% of active cases will be less than two years old (from        serve as a deterrent to future wrongdoing.
                                            the date the case was opened).
                                                                                                     FCA internal policies, procedures and controls are
                                            100% of employee cases without criminal prosecution      strengthened to prevent and/or detect future
                                            potential will be completed within one year from opening wrongdoing.
                                            the case.                                                The average time to complete the two closed
                                                                                                     investigations, which were unsubstantiated, was
                                            Three investigations were open at the beginning of this five months.
                                            period. One more was opened during the period and
                                            two were closed during FY 2000.                          Management more actively oversees FECA
                                                                                                     claims by employees.

                                                                                                             FCA management cleared a backlog of
                                                                                                             determinations on personnel security levels and
                                                                                                             had five-year reinvestigations brought up to
                                                                                                             date.




New measures = green New Outputs = blue         New Outcomes = red                                                                               Page 9 of 13
                                                      OFFICE OF INSPECTOR GENERAL
                                         FY 2000 OIG PERFORMANCE MEASURES
                                                                   INVESTIGATIONS


    PERFORMANCE GOALS                                         OUTPUT/CRITERIA                                             OUTCOME/IMPACT




2. FCA employees and managers                 Allegations of wrongdoing are received in a timely manner        Investigations are more successful because they
   recognize their responsibility to          and are supported by specific information.                       are initiated in a timelier manner and have better
   immediately report observed or             Several anonymous letters were received in OIG. The              information.
   suspected wrongdoing to the IG.            letters included some suggestion of inappropriate
                                              behavior within the examination operation of the                 FCA employees are more willing to report real or
                                              Agency. OIG arranged for a threat assessment. OIG                suspected wrongdoing because they trust the
                                              developed an employee survey to assist in assessing the          competence and fairness of OIG’s investigations.
                                              extent of the problem behavior. A consultant was hired           The OIG is notified promptly whenever
                                              to tabulate and interpret results.                               wrongdoing is observed or suspected in FCA
                                                                                                               programs. Various offices have sought
                                                                                                               guidance to avoid problems or to resolve
                                                                                                               potential problems before there is a need for
                                                                                                               investigation.



3. Agency officials and Congress are kept     Summaries of investigations and the resulting administrative     The Chairman and Congress are better informed
   fully and currently informed of problems   or judicial actions taken are incorporated into the Semiannual   about OIG investigations, administrative and judicial
   found in the process of and resulting      Report to Congress, along with any disagreements on the          consequences.
   from investigative activities.             actions taken or failure of management to act in a timely and
                                              responsible fashion.                                             Public confidence in the integrity of FCA programs
                                                                                                               and internal operations are heightened.
                                              Findings made during the investigative process concerning
                                              the problem at issue or systemic problems are recognized
                                              and corrected or mediated by management.

New measures = green New Outputs = blue           New Outcomes = red                                                                                 Page 10 of 13
                                             OFFICE OF INSPECTOR GENERAL
                                  FY 2000 OIG PERFORMANCE MEASURES
                                                       INVESTIGATIONS


   PERFORMANCE GOALS                               OUTPUT/CRITERIA         OUTCOME/IMPACT




New measures = green New Outputs = blue   New Outcomes = red                           Page 11 of 13
                                                     OFFICE OF INSPECTOR GENERAL
                                              FY 2000 PERFORMANCE MEASURES
                                              REVIEW OF LEGISLATION AND REGULATIONS

Objective: Review and make recommendations regarding existing and proposed legislation and regulations relating to Agency programs and
           operations and the Inspectors General community.



    PERFORMANCE GOALS                                        OUTPUT/CRITERIA                                         OUTCOME/IMPACT


1. Maintain an effective program for          Processes are established and documented for identifying    OIG input is part of the decision making process in
   reviewing and commenting on proposed       and circulating (as appropriate) relevant documents.        approving or amending legislation, regulations,
   and existing legislation and regulations   Legislation is tracked on a daily basis. The PCIE/ECIE      circulars and other policy positions.
   affecting the Agency and the Inspectors    Legislation Committee is active in forwarding interest
   General community.                         items.                                                      Constructive criticism and creative alternatives
                                                                                                          offered in OIG comments improve the quality and
                                              Constructive comments on relevant documents are submitted usefulness of documents initiated by the Agency.
                                              by the deadlines requested by the office, Agency or staff
                                              circulating comments.                                       FCA Board and management are informed about
                                              Comments were submitted on time.                            the status of new or pending legislation or
                                                                                                          regulations initiated externally.
                                              Document review activity is summarized for inclusion in the Suggestions and responses to legislation
                                              Semiannual Report to Congress.                              proposed to amend the IG Act were developed
                                                                                                          and submitted to OMB and Congressional
                                                                                                          staffs.




New measures = green New Outputs = blue           New Outcomes = red                                                                            Page 12 of 13
                                                    OFFICE OF INSPECTOR GENERAL
                                                FY 2000 PERFORMANCE MEASURES
                                                            OUTREACH PROGRAM

Objective: Work with our Agency head and the Congress to improve program management; and work with the Inspectors General community
           and other related organizations to address government wide issues.



       PERFORMANCE GOALS                                        OUTPUT/CRITERIA                                      OUTCOME/IMPACT


1. Agency personnel understand and accept         Develop and maintain educational brochures or pamphlets   Agency employees’ acceptance of and
   OIG’s role within FCA and the community at     describing OIG roles and activities.                      cooperation with OIG activities is improved
   large.                                                                                                   through better understanding. OIG programs
                                                  Facilitate feedback from Agency employees and refine      and products are improved through feedback
                                                  products and practices based on the feedback to OIG       from Agency employees.
                                                  products and educational materials                        In place of the traditional audit report,
                                                  OIG policies have been refined and streamlined. Audit     Agency management has been receptive to
                                                  follow-up was merged with the Agency system so that       the quick response reviews and agreed
                                                  duplication of effort will be avoided.                    upon action techniques.

                                                  Information concerning the OIG HOTLINE can be             Separate Internet account opened to ensure
                                                  obtained through linkage with the OIG Semiannual          confidentiality. The account is with an
                                                  Report in the FCA database.                               outside vendor and cannot be accessed by
                                                                                                            FCA administrators.



2. OIG staff provides leadership to               Time and resources are provided to OIG staff members as   Projects and activities of adjunct organizations
   organizations directly contributing to the     an incentive to contribute to outside organizations by    such as the AGA, IIA, PCIE/ECIE, CCIG,
   Inspectors General community.                  serving on committees and holding offices.                FLETC, and IGATI are improved by OIG
                                                                                                            staff contributions and participation.
New measures = green New Outputs = blue          New Outcomes = red                                                                             Page 13 of 13
                                                    OFFICE OF INSPECTOR GENERAL
                                            FY 2000 PERFORMANCE MEASURES
                                                            OUTREACH PROGRAM


      PERFORMANCE GOALS                                         OUTPUT/CRITERIA                                       OUTCOME/IMPACT




2. OIG staff provides leadership to organizations Professional Organizations-staff are active in meetings     The IG also participated in commenting on
   directly contributing to the Inspectors General and sessions of PCIE/ECIE and other professional           proposed AICPA rule change.
   community. (continued)                          organizations including: Institute of Internal auditors,
                                                   Association of Government Accountants, Council of          The IG worked on the PCIE/ECIE Strategic
                                                   Counsels, Association of Federal Investigators,            Planning Committee to develop a strategic
                                                   FIRREA Work/Life Coordinators, Training                    plan and performance measures.
                                                   Coordinators, International Association of Financial
                                                   Crime; Executive Women’s’ Group, and Instructor at         Counsel nominated to be Co-Chair of
                                                   Inspectors General Auditor Training Institute              Council of Counsels.

                                                                                                              OIG networking opportunities have
                                                                                                              resulted in an expanded consideration of
                                                                                                              FCA ideas and practices by community
                                                                                                              contacts and experts.

                                                                                                              OIG’s Management Analyst earned
                                                                                                              PCIE/ECIE award for work/life efforts.

                                                                                                              The Inspectors General community is more
                                                                                                              credible and effective.



New measures = green New Outputs = blue          New Outcomes = red                                                                           Page 14 of 13
                                                      OFFICE OF INSPECTOR GENERAL
                                              FY 2000 PERFORMANCE MEASURES
                                                              OUTREACH PROGRAM


      PERFORMANCE GOALS                                            OUTPUT/CRITERIA                                          OUTCOME/IMPACT




3. OIG staff contributes to special projects for   OIG staff will participate in projects that will contribute to   Management practices at the Agency are
   improving the Agency, the OIG community         achieving the vision of a better Agency and government.          improved by OIG staff participation in FCA
   and the government.                             • Senior Staff                                                   special projects.
                                                   • EEO Advisory Committee
.                                                  • Accountability Report Workgroup                                FCA programs and operations are more
                                                   • Employee Council                                               effective and efficient.
                                                   • Farm Credit Club                                               OIG involvement with IG community
                                                   • Mentoring Program                                              facilitates an efficient way to get answers
                                                                                                                    or feedback from many different contacts
                                                   • OPM GPRA Interest Group
                                                                                                                    and networks.
                                                   • Administrative Burden Reduction Workgroup
                                                   • Federal Women’s Program Workgroup
                                                   • FIRREA Work/Life Coordinators




New measures = green New Outputs = blue            New Outcomes = red                                                                                Page 15 of 13
                                                                                                                         Attachment 1

                                                   AUDIT RESULTS
        AUDIT              AUDITS ARE         RISK IS       PRODUCTS ARE      AUDITS ARE                    AGENCY
        NAME               RELEVANT         ADDRESSED          TIMELY        CONSTRUCTIVE                 ACCEPTS 80%

Procurement and Supply   OIG Initiated                      4 Months       2 Recommendations        Accepted one; rejected one
Functions                                                                  12 Agreed Upon Actions   Accepted all; implemented
                                                                                                     Seven

FY 2000 Financial         Annual Audit     Strategic Plan   4 Months       2 Recommendations        Accepted and implemented
Statements                (Voluntary                                                                  Both
                          Compliance with
                          CFO Act)
                          As issues were
Preparation for Year 2000 provided to
Compliance                Management, they
                          were addressed
                          immediately.

OE’s Early Warning       OIG Initiated                      6 Months       1 Recommendations        Accepted and implemented
System Stress Model                                                        1 Agreed Upon Action      both
Attachment 2
                                                                                                             Attachment 2


                                    INSPECTION RESULTS
     INSPECTION            INSPECTIONS ARE   PRODUCTS ARE    INSPECTIONS ARE               AGENCY
        NAME                  RELEVANT          TIMELY        CONSTRUCTIVE               ACCEPTS 80%

McLean Field Office       OIG Initiated      3 Weeks        3 Agreed Upon Actions   Accepted and
                                                                                    implemented all.


Telecommunication Costs   OIG Initiated                     6 Agreed Upon Actions   Accepted all; implemented
and Services                                                                        five.


Performance Measures      OIG Initiated      22 Months      2 Recommendations       Accepted both. Not yet
                                                                                    implemented.


Imprest Fund              OIG Initiated      2 Months       8 Agreed Upon Actions   Accepted all; implemented
                                                                                    seven.


Cash Management and       OIG Initiated      4 Months       8 Agreed Upon Actions   Accepted all. Not yet
Investment Practices                                                                implemented.


Denver Field Office       OIG Initiated      1 Month        1 Agreed Upon Action    Accepted. Implemented.
